Case: 20-10087

Document: 00515666355

Page: 1

Date Filed: 12/08/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
December 8, 2020

No. 20-10087
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Zavion Nunley,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-197-1
Before Wiener, Southwick, and Duncan, Circuit Judges.
Per Curiam:*
Zavion Nunley appeals his 96-month sentence of imprisonment for
possession of a firearm by a convicted felon, in violation of 18 U.S.C.
§ 922(g)(1) and 18 U.S.C. § 924(a)(2).

He contends that his above-

guidelines sentence was substantively unreasonable because the district court

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Nunley v. United States
Petition Appendix

1a

Case: 20-10087

Document: 00515666355

Page: 2

Date Filed: 12/08/2020

No. 20-10087

failed to adequately consider his traumatic childhood and the disparities the
sentence would create between Nunley and similarly situated defendants.
Further, Nunley argues that the district court erred by ordering that two of
his anticipated state sentences would run consecutively to his federal
sentence because the conduct involved in those pending state charges was
relevant conduct to the federal offense.
Here, the district court relied on appropriate factors in determining
that an upward variance was warranted, as its reasons addressed Nunley’s
history and characteristics, and the needs to deter Nunley from future
criminal conduct and to protect the public. See 18 U.S.C. § 3553(a); United
States v. Mondragon-Santiago, 564 F.3d 357, 360 (5th Cir. 2009). Nunley
contends that the district court failed to consider his upbringing, but the
district court clearly did and determined that Nunley’s extensive criminal
history warranted an upward variance. Further, Nunley does not show that
he received a higher sentence than other criminal defendants nationwide who
were similarly situated in terms of offense conduct, acceptance of
responsibility, criminal history, or guidelines calculations. See United States
v. Guillermo Balleza, 613 F.3d 432, 435 (5th Cir. 2010); United States
v. Candia, 454 F.3d 468, 476 (5th Cir. 2006). Nothing suggests that the
district court failed to consider a factor that should have received significant
weight, gave significant weight to an improper factor, or made a clear error
of judgment in balancing the sentencing factors; therefore, we defer to the
district court’s determination that the § 3553(a) factors, on the whole,
warrant the variance and justify the extent of the upward variance imposed.
See United States v. Gerezano-Rosales, 692 F.3d 393, 400 (5th Cir. 2012);
United States v. Broussard, 669 F.3d 537, 551 (5th Cir. 2012).
Nunley argues that his state charges for burglary of a vehicle and theft
of a firearm were relevant conduct to the instant federal offense because they
involved the pistol that was the subject of the federal offense. Thus, he claims

Nunley v. United States
Petition Appendix

2

2a

Case: 20-10087

Document: 00515666355

Page: 3

Date Filed: 12/08/2020

No. 20-10087

that the district court mistakenly failed to order these relevant conduct
offenses to run concurrently with his federal sentence, pursuant to U.S.S.G.
§ 5G1.3. Nunley did not raise this issue before the district court, and
therefore, plain error review applies.

See United States v. Mondragon-

Santiago, 564 F.3d 357, 364 (5th Cir. 2009). To establish plain error, Nunley
must show a forfeited error that is clear or obvious and that affected his
substantial rights. See Puckett v. United States, 556 U.S. 129, 135 (2009). If
he makes such a showing, this court has the discretion to correct the error
but should do so only if it seriously affects the fairness, integrity, or public
reputation of judicial proceedings. Id.
In this case, the district court adopted the presentence report, which
found that the state sentences that were ordered to run concurrently were
related to the instant federal offense. The district court ordered the other
anticipated state sentences for unrelated conduct to run consecutively.
Additionally, the concurrent anticipated state sentences were for offenses
related to possessing or firing a firearm, and the consecutive anticipated state
sentences were for offenses comprising all other criminal conduct, including
the contested burglary and theft offenses. The district court did not make
any findings with respect to relevant conduct, and therefore Nunley’s claim
of a mistaken relevant conduct determination does not constitute a clear or
obvious error on plain error review. Further, the district court had the
discretion to order the sentences for the related state offenses to run
concurrently and the other anticipated state sentences to run consecutively
to the federal sentence, and the record shows that the district court did not
exceed its discretion. See Setser v. United States, 566 U.S. 231, 236-37 (2012).
Therefore, Nunley has not demonstrated an error, plain or otherwise. See
Puckett, 556 U.S. at 135.
Given the foregoing, the judgment of the district court is
AFFIRMED.

Nunley v. United States
Petition Appendix

3

3a

Table 8
COMPARISON OF SENTENCE IMPOSED AND
POSITION RELATIVE TO THE GUIDELINE RANGE
Fiscal Year 2017
National
N
1

%

Northern Texas
N
%

TOTAL CASES

66,266

100.0

1,428

100.0

CASES SENTENCED WITHIN GUIDELINE RANGE

32,552

49.1

886

62.0

CASES SENTENCED ABOVE GUIDELINE RANGE

1,950

2.9

79

5.5

DEPARTURE ABOVE GUIDELINE RANGE

Upward Departure From Guideline Range2
Upward Departure With Booker /18 U.S.C. § 3553

3

OTHERWISE ABOVE GUIDELINE RANGE

Above Guideline Range With Booker /18 U.S.C. § 3553
All Remaining Cases Above Guideline Range

4

5

GOVERNMENT SPONSORED BELOW RANGE6

456

0.7

12

0.8

352

0.5

5

0.4

104

0.2

7

0.5

1,494

2.3

67

4.7

1,411

2.1

67

4.7

83

0.1

0

0.0

18,417

27.8

222

15.5

§5K1.1 Substantial Assistance Departure

7,128

10.8

187

13.1

§5K3.1 Early Disposition Program Departure

5,828

8.8

1

0.1

Other Government Sponsored Below Range

5,461

8.2

34

2.4

NON-GOVERNMENT SPONSORED BELOW RANGE

13,347

DEPARTURE BELOW GUIDELINE RANGE

Downward Departure From Guideline Range

2

Downward Departure With Booker /18 U.S.C. § 3553

3

OTHERWISE BELOW GUIDELINE RANGE

Below Guideline Range With Booker /18 U.S.C. § 35534
All Remaining Cases Below Guideline Range

5

20.1

241

16.9

1,563

2.4

28

2.0

1,142

1.7

21

1.5

421

0.6

7

0.5

11,784

17.8

213

14.9

11,457

17.3

211

14.8

327

0.5

2

0.1

1

This table reflects the 66,873 cases sentenced nationally in fiscal year 2017, 1,430 of which were from the Northern District of Texas.
Of these, 607 cases nationally and two cases from the Northern District of Texas were excluded because information was missing from
the submitted documents that prevented the comparison of the sentence and the guideline range.

2

All cases with departures in which the court did not indicate as a reason either United States v. Booker, 18 U.S.C. § 3553, or a factor or reason
specifically prohibited in the provisions, policy statements, or commentary of the Guidelines Manual.

3

All cases sentenced outside of the guideline range in which the court indicated both a departure (see footnote 2) and a reference to either
United States v. Booker, 18 U.S.C. § 3553, or related factors as a reason for sentencing outside of the guideline system.

4

All cases sentenced outside of the guideline range in which no departure was indicated and in which the court cited United States v. Booker,
18 U.S.C. § 3553, or related factors as one of the reasons for sentencing outside of the guideline system.

5

All cases sentenced outside of the guideline range that could not be classified into any of the three previous outside of the range categories.
This category includes cases in which no reason was provided for a sentence outside of the guideline range.

6

Cases in which a reason for the sentence indicated that the prosecution initiated, proposed, or stipulated to a sentence outside of the guideline
range, either pursuant to a plea agreement or as part of a non-plea negotiation with the defendant.

SOURCE: U.S. Sentencing Commission, 2017 Datafile, USSCFY17.

Nunley v. United States
Petition Appendix

11
4a

Table 8
SENTENCE IMPOSED RELATIVE TO THE GUIDELINE RANGE1
Fiscal Year 2018
National
N

%

Northern Texas
N
%

TOTAL CASES

68,902

100.0

1,479

100.0

SENTENCES UNDER THE GUIDELINES MANUAL

51,702

75.0

1,194

80.7

Within Guideline Range

35,127

51.0

948

64.1

396

0.6

13

0.9

§5K1.1 Substantial Assistance

6,948

10.1

178

12.0

§5K3.1 Early Disposition Program

6,259

9.1

1

0.1

Other Government Motion3

1,272

1.8

21

1.4

Non-Government Departure4

1,700

2.5

33

2.2

Upward Departure2
Downward Departure

VARIANCES

17,200

Upward Variance5

25.0

285

19.3

1,404

2.0

78

5.3

3,795

5.5

10

0.7

12,001

17.4

197

13.3

Downward Variance
Government Motion6
Non-Government Variance7
1

This table reflects the 69,425 cases reported to the Commission in fiscal year 2018, 1,484 of which were from the
Northern District of Texas. Of these, 523 cases nationally and five cases from the Northern District of Texas were excluded
because information was missing from the submitted documents that prevented the comparison of the sentence and the guideline range.

2

Cases in which the sentence imposed was above the applicable guideline range and for which the court cited a reason on Part V of the
Statement of Reasons form, other than §5K1.1 or §5K3.1.
3

Cases in which the sentence imposed was below the applicable guideline range and for which the court cited a reason on Part V of the
Statement of Reasons form, other than §5K1.1 or §5K3.1, and where the prosecution initiated, proposed, or stipulated to the sentence.
4

Cases in which the sentence imposed was below the applicable guideline range and for which the court cited a reason on Part V of the
Statement of Reasons form, other than §5K1.1 or §5K3.1, and where the prosecution did not initiate, propose, or stipulate to the sentence.
5

Cases in which the sentence imposed was above the applicable guideline range and for which the court cited a reason on Part VI of the
Statement of Reasons form.
6

Cases in which the sentence imposed was below the applicable guideline range and for which the court cited a reason on Part VI of the
Statement of Reasons form, and where the prosecution initiated, proposed, or stipulated to the sentence.
7

Cases in which the sentence imposed was below the applicable guideline range and for which the court cited a reason on Part VI of the
Statement of Reasons form, or where no reason was given, and where the prosecution did not initiate, propose, or stipulate to the sentence.
SOURCE: U.S. Sentencing Commission, 2018 Datafile, USSCFY18.

12

Nunley v. United States
Petition Appendix

5a

Table 8
SENTENCE IMPOSED RELATIVE TO THE GUIDELINE RANGE1
Fiscal Year 2019
National
N

%

Northern Texas
N
%

TOTAL CASES

76,034

100.0

1,556

100.0

SENTENCES UNDER THE GUIDELINES MANUAL

56,995

75.0

1,202

77.2

Within Guideline Range

39,078

51.4

971

62.4

364

0.5

16

1.0

§5K1.1 Substantial Assistance

7,272

9.6

184

11.8

§5K3.1 Early Disposition Program

7,119

9.4

0

0.0

Other Government Motion 3

1,410

1.9

10

0.6

Non-Government Departure 4

1,752

2.3

21

1.3

Upward Departure2
Downward Departure

VARIANCES

19,039

Upward Variance5

25.0

354

22.8

1,431

1.9

95

6.1

4,083

5.4

17

1.1

13,525

17.8

242

15.6

Downward Variance
Government Motion 6
Non-Government Variance 7
1

This table reflects the 76,538 cases reported to the Commission in fiscal year 2019, 1,556 of which were from the Northern District
of Texas. Of these, 504 cases nationally were excluded because information was missing from the submitted documents that prevented
the comparison of the sentence and the guideline range, while none from the Northern District of Texas were excluded.
2

Cases in which the sentence imposed was above the applicable guideline range and for which the court cited a reason on Part V of the
Statement of Reasons form, other than §5K1.1 or §5K3.1.

3

Cases in which the sentence imposed was below the applicable guideline range and for which the court cited a reason on Part V of the
Statement of Reasons form, other than §5K1.1 or §5K3.1, and where the prosecution initiated, proposed, or stipulated to the sentence.

4

Cases in which the sentence imposed was below the applicable guideline range and for which the court cited a reason on Part V of the
Statement of Reasons form, other than §5K1.1 or §5K3.1, and where the prosecution did not initiate, propose, or stipulate to the sentence.

5

Cases in which the sentence imposed was above the applicable guideline range and for which the court cited a reason on Part VI of the
Statement of Reasons form.

6

Cases in which the sentence imposed was below the applicable guideline range and for which the court cited a reason on Part VI of the
Statement of Reasons form, and where the prosecution initiated, proposed, or stipulated to the sentence.

7

Cases in which the sentence imposed was below the applicable guideline range and for which the court cited a reason on Part VI of the
Statement of Reasons form, or where no reason was given, and where the prosecution did not initiate, propose, or stipulate to the sentence.
SOURCE: U.S. Sentencing Commission, 2019 Datafile, USSCFY19.

12

Nunley v. United States
Petition Appendix

6a

